No.
In the
Supreme Court of the United States
CAROLOS AMEZCUA, Petitioner
v.
JOE A. LIZARRAGA, Warden
Respondent

On Petition for Writ of Certiorari to the United States Court of
Appeals for the Ninth Circuit
19-55910

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

CHARLES R. KHOURY JR.
Attorney at Law
P.O. Box 791
Del Mar CA. 92014
(858) 764-0644
Cal.State Bar No. 42625
charliekhouryjr@yahoo.com
Appointed Attorney for Petitioner

Petitioner, by his undersigned counsel, seeks leave to file the
attached petition for writ of certiorari to the United States Court of Appeals
for the Ninth Circuit without prepayment of costs and to proceed in forma
pauperis. Petitioner has this appointed counsel under the CJA for this
petition.
This motion is brought pursuant to Rule 39.1 of the Rules of the
Supreme Court of the United States.
Respectfully submitted,

Date: September 22, 2021

By: /s/ Charles R. Khoury Jr.
Attorney for Petitioner

2

